CERTIFICATE OF GOOD FAITH

The Petitioner hereby certify that the grounds are limited to
intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously presented.

The Petitioner, I believe this petition for rehearing to be
meritorious and hereby certify that this petition is presented in good
faith and not for purpose of delay.
per
Palani Karupaiyan,

PO Box 674,

Iselin,
NJ 08820.

palanikay@gmail.com
212-470-2048 (M)

Page 8 of 10
